HHS/OIG, Audit -"Audit of Costs and Reporting of Funds Under the Bioterrorism Hospital
Preparedness Program,"(A-04-04-01003)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Costs and Reporting of Funds Under the Bioterrorism Hospital Preparedness Program," (A-04-04-01003)
November 2, 2005
Complete
Text of Report is available in PDF format (2.86 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to determine whether the North Carolina Department of Health and Human
Services (the State):  (1) recorded and reported HRSA Program funds awarded, expended,
obligated, and unobligated in accordance with the cooperative agreement; (2) ensured
that the Program funds were used for necessary, reasonable, allocable, and allowable costs
in accordance with the terms of the cooperative agreement; and (3) supplanted current State
or local funding with Program funds.
The State generally recorded and reported HRSA Program funds awarded, expended, obligated,
and unobligated by priority area, by critical benchmark, and by funds allocated to hospitals
and other health care entities as required by the cooperative agreement.  Costs incurred
by the State for administering the Program were necessary, reasonable, allocable, and allowable.  However,
the two subrecipients that we reviewed claimed reimbursement from the State for $227,666
in unallowable costs.  We found no evidence that the State supplanted State or local
expenditures with Program funds.
We recommended that the State:  (1) reduce Program expenditures by the $227,666 of
unallowable subrecipient costs and increase unobligated funds by the same amount when preparing
the final Financial Status Report; (2) implement adequate reporting and monitoring policies
and procedures in a timely manner; and (3) develop award documents that clearly identify
the type of award and related cost principles.  The State generally disagreed with our
findings and recommendations.  The State agreed that $40,812 is unallowable and maintained
that the balance of $186,854 is allowable.  We continue to believe that $186,854 is
unallowable.